No. 19-784

In The

Supreme Court of the United States
UNIVERSITY OF PENNSYLVANIA, et al.,
Petitioners,

v.
JENNIFER SWEDA, et al.,

Respondents.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Third Circuit

CERTIFICATE OF COMPLIANCE

In accordance with Supreme Court Rule 33.1(h), I certify that the foregoing
Supplemental Brief for Petitioners contains 904 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Dated: March 26, 2020

DAVID B. SALMONS
Counsel of Record
MORGAN, LEWIS & BOCKIUS LLP
1111 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
(202) 739-3000
david.salmons@morganlewis.com
Counsel for Petitioners

